FINANCIAL
MANAGEMENT

Additional Actions
Needed to Ensure
Accountability over
Undercover Funds




            OIG-14-1 FAIS Undercover Funds
                 Office of Inspector General
           U.S. Government Accountability Office
                      Report Highlights

May 27, 2014


FINANCIAL MANAGEMENT
Additional Actions Needed to Ensure Accountability
over Undercover Funds

Objective

This report addresses the extent to which GAO has implemented effective
controls to ensure accountability of undercover funds primarily spent in
fiscal year 2012.

What OIG Found

In fiscal year 2012, FAIS used two primary methods to access funds to
support its undercover activities: a credit union checking account and
undercover charge cards. OIG found no evidence of fraud or waste
regarding undercover funds, but did identify areas for improvement in
financial management controls. Controls were ineffective in preventing
and identifying use of appropriated funds for which the period of
availability had expired. As a result, we found that FAIS investigative staff
improperly used and retained fiscal year 2011 funds in fiscal years 2012
and 2013. In addition, we identified other conditions that increased the
risk for fraud, waste, and mismanagement of FAIS undercover funds,
such as undercover purchases occurring prior to requisite management
approval and gaps in policies and procedures for ensuring accountability
over undercover funds. In response to our audit, FM made accounting
adjustments to remedy bona fide need violations and implemented
procedures to mitigate future risk, including periodic reviews of controls
over FAIS transactions. FAIS has revised its policies and procedures for
undercover funds, which are in the final phase of review prior to issuance
and intends to train its staff following issuance.

What OIG Recommends

OIG recommends that the Comptroller General direct the FAIS Managing
Director to expeditiously complete efforts to update and implement
policies and procedures applicable to safeguarding undercover funds and
ensuring compliance with appropriations law, and to train FAIS staff upon
completion. Additionally, we recommend the inclusion of FAIS, as the
primary office responsible for developing and maintaining GAO’s forensic
audit and investigative policies and procedures, in GAO Order 0010.1,
Government Accountability Office (GAO) Orders, Operational Directives,
and Manuals, to help ensure that FAIS policies and procedures are
updated, as needed. GAO and FAIS have taken or initiated actions to
address our recommendations.


                                                  OIG-14-1 FAIS Undercover Funds
                                                        United States Government Accountability Office


Memorandum
Date:             May 27, 2014

To:               Comptroller General Gene L. Dodaro

From:             Inspector General Adam R. Trzeciak

Subject:          Financial Management: Additional Actions Needed to Ensure Accountability
                  over Undercover Funds

GAO’s Forensic Audits and Investigative Service (FAIS) investigators are authorized to
conduct undercover operations and activities 1 relating to the detection, prevention, and
prosecution of criminal activity involving programs and operations of federal agencies
(excluding GAO). In addition, FAIS is authorized to conduct undercover operations and
activities to determine vulnerabilities affecting federally funded programs and operations of
the United States. 2 Undercover activities inherently involve an element of deception. As
such, they may require specialized investigative techniques, including the use of assumed
identities and funds not traceable to GAO or the government. In fiscal year 2012, FAIS used
two primary methods to access funds to support its undercover activities: a credit union
checking account and undercover charge cards. Since undercover activities allow the same
individual to order, pay for, and receive goods and services, funds associated with these
activities are at high risk of fraud, waste, or misuse.


Objective, Scope, and Methodology


This report addresses the extent to which GAO has implemented effective controls for
ensuring accountability of FAIS undercover funds primarily spent in fiscal year 2012. To
achieve our audit objective, we identified and reviewed applicable policies, procedures,
professional standards, laws, and regulations. In addition, we interviewed FAIS managers
and staff, including the FAIS Director of Investigations, three FAIS investigators, the FAIS
quality assurance and operations manager, and the FAIS undercover charge card program
coordinator; GAO attorneys knowledgeable of FAIS operations and appropriations law; GAO
Financial Management and Business Operations 3 staff, including the imprest fund cashier,

1
  FAIS defines undercover operations as any investigation involving a series of undercover activities over a period
of time. An undercover activity is defined as an investigative activity involving the use of an assumed name or
cover identity.
2
  See 31 U.S.C. §§ 712(1), (4); 717(b).
3
 Financial Management and Business Operations provide services that support GAO teams and offices through
four program offices: Acquisition Management, Budget Office, Financial Management, and Program Analysis
and Operations.



Page 1                                                                    OIG-14-1 FAIS Undercover Funds
budget officer for FAIS, the Program Analysis and Operations 4 director, and accounting
staff; and the Information Systems and Technology Services’ telecommunications manager.


We used this approach to gain an understanding of

    •    FAIS’s internal control design, including existing policies and procedures;

    •    methods FAIS investigators used to access funds to support undercover activities;

    •    the flow of transactions and controls established to help ensure that access to funds
         was authorized and that the funds were used as intended and in compliance with
         applicable laws and regulations; and

    •    the scope of GAO and FAIS management oversight and monitoring activities,
         including internal reviews and reconciliations, directed toward assessing the
         sufficiency and effectiveness of FAIS’s internal control design.


We reviewed all undercover charge card transactions paid in fiscal year 2012. We also
reviewed all financial transactions that occurred between September 2011 and May 2013
related to GAO disbursements supporting two FAIS investigations. 5


We used GAO’s Standards for Internal Control in the Federal Government, 6 the GAO Policy
Manual, 7 FAIS policies and procedures, 8 and the Council of the Inspectors General on
Integrity and Efficiency’s (CIGIE) Quality Standards for Investigations, 9 as applicable, to
analyze FAIS’s methods of accessing funds for undercover activities, review individual
transactions, and determine whether FAIS had established an effective internal control
environment (including defined policies and procedures and corresponding control activities
to achieve operational, reporting, and compliance objectives).



4
  Program Analysis and Operations is responsible for the annual assessment and reporting on the effectiveness
of GAO’s internal controls, including those related to financial systems and related processes.
5
  GAO, DOD Supply Chain: Suspect Counterfeit Electronic Parts Can Be Found on Internet Purchasing
Platforms, GAO-12-375 (Washington, D.C.: Feb. 21, 2012) and For-Profit Schools: Experiences of Undercover
Students Enrolled in Online Classes at Selected Colleges, GAO-12-150 (Washington, D.C.: Oct. 31, 2011).
6
  GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (Washington, D.C.:
November 1999).
7
  GAO, GAO Policy Manual—January 1, 2008 Version (Updated December 2012).
8
  Forensic Audits and Special Investigations, GAO Order 0130.1.5 (July 22, 2010); GAO, Managing Director of
Forensic Audits and Special Investigations, FSI Request for Waiver of Select GAO Purchase Card
Requirements, memorandum to the Chief Administrative Officer (Apr. 21, 2009); and FAIS Investigation Manual,
Section 1 - Protocols, Chapter 6, Forensic Audits and Special Investigations (FSI), General Protocols and
Procedures Related to GAO’s Imprest Fund (Nov. 2, 2006) and Chapter 7, Forensic Audits and Special
Investigations (FSI), Protocols and Procedures Related to the Use of Purchase and Travel Cards. No date was
reflected for the manual or chapter 7.
9
  Council of the Inspectors General on Integrity and Efficiency, Quality Standards for Investigations (Nov. 15,
2011).




Page 2                                                                  OIG-14-1 FAIS Undercover Funds
We conducted this performance audit from June 2013 through May 2014 in accordance with
generally accepted government auditing standards (GAGAS), except for the quality control
and assurance standard requiring an external peer review of our audit organization every
three years. This exception did not affect the planning or performance of our audit. The
Office of Inspector General is scheduled for a peer review in fiscal year 2015. GAGAS
requires that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.


Background


FAIS provides the Congress with forensic audits; investigations of fraud, waste, and abuse;
evaluations of security vulnerabilities; and other investigative services as part of its own
assignments or in support of other GAO audit teams. As of March 2014, FAIS had 53
employees that included analysts, investigators, and other staff. GAO policy and relevant
directives 10 require that FAIS have an internal control environment consistent with GAO’s
Standards for Internal Control in the Federal Government. Such a control environment
would provide reasonable assurance that GAO resources are protected by ensuring that
undercover funds are used consistent with objectives as outlined in the applicable
investigative plan.


GAO has a long-established requirement that executive-level GAO officials approve
undercover operations prior to their initiation, though the approving official has varied over
time. At the time of our review, GAO required the FAIS Oversight Board11 to approve all
investigative plans, including those that propose the use of undercover activity. This
approval must be obtained prior to conducting any specialized investigative techniques,
including undercover activities and operations. In addition, investigators are required to
consult with the Chief Operating Officer or designee and the General Counsel prior to
engaging in any undercover operations.


FAIS investigative plans establish the objective of an investigation and provide an estimate
of the funding the team needs to support a specific investigation. If the method for providing
funding is not specified in an investigative plan, FAIS determines, following initiation of the
investigation, how to access the funds estimated in the investigative plan to achieve
investigative objectives. In fiscal year 2012, FAIS received more than $50,000 for
investigative activities through cash disbursements from the GAO imprest fund, an electronic
transfer to a credit union account, and use of undercover charge cards.


10
   GAO Order 0130.1.5; Management’s Responsibility for Internal Control, GAO Order 0201.3 (Aug. 23, 2006);
Administrative Control of Funds, GAO Order 0211.1 (Aug. 27, 2011); Definition and Use of Imprest Funds, GAO
Order 0215.2 (Dec. 12, 2006); and GAO Policy Manual, Section 315: Consultations with Experts and Specialists,
Part C ─ Forensic Audits and Investigative Service.
11
   Members of the FAIS Oversight Board include GAO’s Chief Operating Officer, General Counsel, Chief Quality
Officer, and the Managing Director of Applied Research and Methods.




Page 3                                                                OIG-14-1 FAIS Undercover Funds
Assessment of the effectiveness of policies and procedures in ensuring management
program, reporting, and compliance objectives is a way of identifying and mitigating risks. To
assess the quality and reliability of its products, GAO includes investigations in its annual
quality assurance reviews. Further, GAO performs an internal assessment of the
effectiveness of internal controls generally consistent with the guidance of Office of
Management and Budget’s (OMB) Circular A-123. 12 As a legislative branch agency, GAO is
not required to follow any OMB circulars, including OMB Circular A-123 or its appendices.
However, as a matter of policy, GAO has indicated that it generally would assess and report
on the effectiveness of GAO’s internal controls consistent with the guidance of OMB Circular
A-123.


Weak Controls Heightened Vulnerability of Undercover Funds to Fraud, Waste,
and Mismanagement


Our review of controls over FAIS undercover funds used primarily in fiscal year 2012 found
no evidence of fraud or waste, but we did identify opportunities for enhancing financial
management controls of undercover funds. Whether FAIS is using undercover funds
obtained through checking accounts or charge cards, internal controls serve as the first line
of defense in safeguarding assets and preventing and detecting errors and fraud.


Prior Year Funds Were Improperly Used and Retained for Undercover Operations
and Gaps Were Identified in Policies and Procedures for Ensuring Accountability
over Undercover Funds


Between September and November 2011, FAIS received $40,900 in fiscal year 2011 funds
for two undercover investigations. FAIS properly spent $29,227.19, or about three-fourths, of
the $40,900 in fiscal years 2011 and 2012. However, our analysis showed that FAIS
improperly used $3,966.25 in expired fiscal year 2011 funds to make payments, and
improperly retained $7,160.34 in expired fiscal year 2011 funds after the investigations were
closed. (See figure 1.)




12
     OMB Circular No. A-123 Revised, Management’s Responsibility for Internal Control (Dec. 21, 2004).




Page 4                                                                    OIG-14-1 FAIS Undercover Funds
       Prior Year Funds Were Improperly Used


An agency may spend or obligate its fiscal year appropriation only to meet a bona fide need
arising in the fiscal year for which the funds were appropriated. 13 Our analysis showed that
FAIS investigators improperly spent $3,966.25 in expired fiscal year 2011 funds for one
investigation in fiscal year 2012. For the second investigation, we found that FAIS
investigators had established a bona fide need for using fiscal year 2011 funds to make
payments totaling $27,068.84 in fiscal year 2012.


To fund FAIS’s counterfeit military parts investigation, 14 GAO’s Financial Management (FM)
office provided FAIS a total of $10,900 within the last four days of fiscal year 2011
(September 27-30) from the GAO imprest fund. 15 As required, this disbursement of funds
occurred after the FAIS Oversight Board approved the investigative plan on September 20,
2011. On September 29, 2011, the then FAIS managing director and an investigator opened
credit union accounts. Of the $10,900 provided by GAO, FAIS kept $1,400 in cash to
support immediate payments to vendors and deposited the remaining $9,500 into a credit
union checking account it opened.


13
     31 U.S.C. § 1502 (a).
14
     GAO-12-375.
15
 GAO made cash disbursements from the GAO imprest fund of $900 on September 27, 2011, and $10,000 on
September 29, 2011—one day prior to year-end.




Page 5                                                            OIG-14-1 FAIS Undercover Funds
FAIS investigators made a total of 14 undercover payments using fiscal year 2011 funds
between September and December 2011 (fiscal years 2011 and 2012). 16 For 8 of the 14
payments, FAIS investigators established a bona fide need for using fiscal year 2011 funds
by reaching agreements with vendors regarding purchase terms and conditions (e.g., the
number, condition, and price of the parts). The 8 payments totaled $2,158.35; of those, 5
payments totaling $950.80 were made in fiscal year 2011, and 3 totaling $1,207.55 were
made in early October 2011 (fiscal year 2012). The remaining 6 payments totaling
$3,966.25 were made in fiscal year 2012, but FAIS investigators did not have a bona fide
need to use fiscal year 2011 funds because they had not reached agreements regarding
purchase terms and conditions in fiscal year 2011. Therefore, FAIS was legally required to
use fiscal year 2012, not fiscal year 2011, funds to make these 6 payments. After the 14
payments were made, FAIS investigators retained the remaining $4,775.40 ($4,660.75 in its
checking account and $114.65 in cash held by an investigator). Figure 2 provides a timeline
depicting the use and retention of fiscal year 2011 funds for the counterfeit military parts
investigation.




16
     These payments were for 16 counterfeit military parts purchases from 13 vendors.




Page 6                                                                    OIG-14-1 FAIS Undercover Funds
GAO attorneys told us that they had advised FM and FAIS managers and staff about the
risk of a bona fide need violation in 2006 or 2007 when FAIS had previously used a
checking account for an investigation. Although advised of the risk of a bona fide need
violation, neither FM nor FAIS updated their policies and procedures to inform their staff on
how to prevent and detect bona fide need violations. In the absence of such written policies
and procedures, FAIS requested, and FM provided, $10,900 in the last four days of fiscal
year 2011. The FAIS investigator responsible for the checking account had no knowledge of
the bona fide need requirement. In response to our audit, FM has made accounting
adjustments to record the expenditures in the appropriate fiscal year to remedy the bona
fide need violations. 17


17
 After the end of the period of availability, the account remains open for up to five years. During this period
before the account is closed, it remains available for recording, adjusting, and liquidating obligations properly
chargeable to that account. 31 U.S.C. §§ 1552(a), 1553.




Page 7                                                                      OIG-14-1 FAIS Undercover Funds
For the for-profit schools investigation, 18 FM appropriately provided FAIS in early fiscal year
2012 with $30,000 in fiscal year 2011 funds because FAIS investigators had established a
bona fide need for these funds when they took out nine student loans in fiscal year 2011.
FAIS deposited the entire $30,000 into its checking account and made nine payments
totaling $27,068.84 in fiscal year 2012 to pay off the student loans. 19 Following its first
student loan payment in October 2011, FAIS returned $546.22 to FM. After making all nine
student loan payments, FAIS retained the remaining $2,384.94 in its checking account.
Figure 3 provides a timeline depicting the use and retention of fiscal year 2011 funds for the
for-profit schools investigation.




18
     GAO-12-150.
19
  On October 28, 2011 (fiscal year 2012), FM provided FAIS with $5,000 in fiscal year 2011 funds from the GAO
imprest fund. On November 21, 2011, FM made an electronic transfer of $25,000 in fiscal year 2011 funds to
FAIS’s checking account.




Page 8                                                                 OIG-14-1 FAIS Undercover Funds
In December 2011 (fiscal year 2012), after all payments were made for both investigations,
the checking account held $7,045.69 and an investigator held $114.65 in cash of expired
fiscal year 2011 funds. A year later in December 2012 (fiscal year 2013), the credit union
assessed a $10 fee and deducted it from the balance of the expired funds remaining in the
checking account. Because FAIS had not established a bona fide need in fiscal year 2011 to
pay the $10 fee, FAIS was legally required to use fiscal year 2013, not fiscal year 2011,
funds to pay the fee.


       Prior Year Funds Were Improperly Retained


Annual appropriations are available only to meet bona fide needs of the fiscal year for which
they were appropriated, and unobligated funds remaining at the end of the appropriation
period must be returned to the general fund of the Treasury. In addition, FAIS’s policy
requires that all remaining funds at the end of an investigation be returned to the GAO
imprest fund. 20


Our work showed that FAIS did not fully comply with these requirements for the two
investigations that used the credit union checking account and improperly retained expired
fiscal year 2011 funds totaling $7,160.34. Specifically, FAIS did not return $4,775.40 in
expired funds when the counterfeit military parts investigation was completed in February
2012 or at the end of fiscal year 2012. In addition, FAIS did not return $2,384.94 in expired
funds after making its last student loan payment in December 2011, which was more than
one month after FAIS completed its for-profit schools investigation. According to the FM
Director, if the funds had been recorded as an advance, as appropriate, FM’s financial
management system would have prompted FM staff at the end of fiscal years 2011 and
2012 to contact FAIS regarding the status of the funds.


In response to our audit, FM and FAIS have taken steps to strengthen accountability and
oversight of funds provided for investigative activities. For example, following closure of the
GAO imprest fund, FM worked with FAIS to develop and implement new procedures in
February 2014 to help ensure that accountability over investigative funds is maintained. 21
Under these new procedures, an FAIS manager will review monthly statements and provide
FM with a statement certifying the accuracy of expenditures made in support of an
investigative activity or operation.


FAIS staff said that they were unaware of the statutory requirement to return expired funds
or FAIS’s policy requiring that any remaining funds be returned at the end of an
investigation. FAIS directors stated that they are in the process of addressing this issue.
Specifically, after the revised draft policies and procedures are approved, FAIS staff will be
required to annually review and confirm their understanding of guidance contained in these
documents.


20
     FAIS Investigation Manual, Section 1, Chapter 6.
21
     GAO Office of Financial Management, FMBO Support for Investigative Activities (Feb. 28, 2014).




Page 9                                                                    OIG-14-1 FAIS Undercover Funds
     Key Decisions Regarding the Use of Cash for One Investigation Were Not
     Documented


Supervisory approval is a key control for ensuring accountability of funds, including
decisions to retain or withdraw cash during investigations. Our work showed that an FAIS
investigator retained and withdrew cash from the checking account for the counterfeit
military parts investigation without documentation of management approval. In addition, we
determined that FAIS did not establish policies or procedures regarding written management
approvals to use or retain funds from a checking account. In the absence of written policies
and procedures, the investigator responsible for the checking account confirmed that the
team did not use a written approval process for its checking account. He also stated that the
then FAIS managing director was fully aware of and had given oral approval to withdraw
cash to make the purchases and retain funds from the checking account.


After a new managing director assumed responsibility for FAIS in October 2012, the Director
of Investigations initiated a reconciliation of FAIS’s checking account to supporting
documentation. During the reconciliation, FAIS managers became aware that cash amounts
ranging from $61.75 to $1,014 had been retained outside the account over the course of the
counterfeit military parts investigation. Moreover, when the last payment for this investigation
was made in December 2011, $114.65 in cash remained outside of the account. The
responsible investigator deposited $115 into the checking account on March 22, 2013. FAIS
closed the account on May 1, 2013, and returned $7,159.69 to Treasury. In response to our
work, FAIS revised, in January 2014, its form for documenting management approval to
make investigative purchases to include approval of cash withdrawals from checking
accounts to make undercover purchases.


     Gaps Existed in FAIS Policies and Procedures for Ensuring Accountability
     of Undercover Funds in Checking Account


We identified gaps in FAIS policies and procedures regarding how to use and safeguard
undercover funds disbursed through a checking account. Policies and procedures we
identified that were relevant to the use of a checking account were in FAIS’s Investigation
Manual’s chapter on imprest funds. The imprest fund chapter establishes policy requiring
that all remaining funds from FAIS investigations be returned to the GAO imprest fund after
the investigation is completed, and it provides procedures for how to obtain cash from this
imprest fund. However, the chapter provides no guidance regarding the roles and
responsibilities of FAIS staff and managers for safeguarding these funds or for ensuring
compliance with the bona fide needs statute. The chapter also does not identify policies or
procedures for how to open a checking account or whether written management approvals
are required to use or retain cash. We believe the lack of policies and procedures regarding
how to open credit union accounts, including requirements consistent with federal
appropriations law, may have contributed to the then FAIS managing director making an
improper donation of personal funds to open credit union accounts in September 2011. 22
22
 The $10 donation included a lifetime credit union membership fee of $1 and a deposit of $4 into a checking
account and $5 into a savings account.




Page 10                                                                 OIG-14-1 FAIS Undercover Funds
Using personal funds, regardless of the amount, to open these accounts improperly
augmented GAO’s appropriation. 23


In addition, FAIS policy requires, at the end of an investigation, the preparation of a
document that provides a cost breakdown of the funds that have been spent and, if
appropriate, a notation of any unused funds that will be returned to the GAO imprest fund.
FAIS staff prepared cost breakdown worksheets for both the counterfeit military parts and
for-profit schools investigations. However, only the for-profit schools investigation worksheet
identified the use of a credit union account, and neither of the worksheets prepared for the
two investigations identified funds retained following completion of the investigation. A policy
that requires returning funds to the GAO imprest fund only after an investigation is
completed and not at the end of the fiscal year may result in the improper use and retention
of expired funds, particularly if staff and managers are unaware of how to ensure
compliance with applicable appropriation laws such as the bona fide need statute. We also
found that FAIS’s policies and procedures do not identify other means of obtaining funds,
such as electronic transfers. According to the FM director, GAO closed its imprest fund in
December 2013. Although the GAO imprest fund is now closed, FAIS investigators may
need to access cash for investigative activities in the future. As a result, the need for
updated and complete policies and procedures remains.


In response to our work, FAIS has revised its policies and procedures regarding how to use
and safeguard undercover funds disbursed through a checking account. The revised
policies and procedures explain, among other things, the roles and responsibilities of FAIS
staff and managers in safeguarding funds and opening a checking account, the extent to
which written management approvals are required to use or obtain funds, the mechanisms
for overseeing and monitoring funds, and detailed process to account for funds and return
any unused funds after the authorized investigative activity has been completed. According
to the FAIS Director of Investigations, these policies and procedures will be distributed and
affected staff will be trained as soon as they are finalized. In March 2014, FAIS’s
investigative assistant directors received training on these policies and procedures and have
begun implementing them through oral instruction to staff.


Controls over Use and Payment of Undercover Charge Cards Were Ineffective


FAIS controls were ineffective in preventing the use of undercover charge cards prior to the
FAIS Oversight Board’s approval of the investigative plan and FAIS management approval
to make a purchase. In addition, FAIS oversight and monitoring of undercover charge card
usage was ineffective in ensuring that charge card bills were paid timely and that cards were
used in a manner that was consistent with GAO’s general acquisition and property




23
 See GAO Principles of Appropriation Law, 6-163 (which cites 31 U.S.C. 3302(b); 31 U.S.C. 1301(a); and
Comptroller General decisions holding that an agency may not circumvent limitations by augmenting its
appropriations from sources outside the government).




Page 11                                                               OIG-14-1 FAIS Undercover Funds
management policies. 24 Further, FAIS’s policies and procedures for undercover charge
cards are outdated and incomplete.


   Half of the Undercover Charge Card Purchases That Required An Approved
   Investigative Plan Were Made Before Plan Approval


GAO and FAIS policies 25 require written approval of an investigative plan prior to conducting
any investigative actions, such as undercover charge card purchases. To obtain approval of
an investigative plan, FAIS must have signatures from all FAIS Oversight Board members
as well as from FAIS’s Managing Director, Director of Investigations, responsible assistant
director, and investigator. Of the ten undercover card purchases (totaling $5,026.18)
requiring an approved investigative plan, our analysis showed that five occurred after written
approval of the plan, as required, and five did not.


Four of the five purchases, totaling $2,930.83, made without the requisite approved plan
occurred while the FAIS Oversight Board was reviewing the investigative plan. For one of
the four purchases, we also determined that, while FAIS did not have an approved
investigative plan, the investigator had obtained oral approval from GAO executives prior to
making the purchase.


The one remaining purchase made without an approved investigative plan occurred 50 days
prior to board approval. This purchase, totaling $245.54, also occurred prior to receipt of
FAIS management approval authorizing use of an undercover charge card – another
requirement for the purchase. Our review of the documentation associated with this
purchase and consultation with the Assistant General Counsel to FAIS did not identify any
reason this purchase should have occurred prior to requisite approvals. In response to our
work, FAIS has modified the form it uses to document management approval to use an
undercover charge card to include an electronic link to the approved investigative plan,
when applicable, to help ensure that all requisite approvals are obtained.


    Control over the Use of Undercover Charge Cards Was Not Maintained


To safeguard its undercover charge cards, FAIS centrally controlled access to the cards and
restricted their use to its investigators and undercover charge card coordinator. Following
receipt of written authorization from a manager (or designee) to use an undercover charge
card, the coordinator provided an authorized investigator with a card and recorded transfer
of accountability for the card to the investigator in the FAIS control log. Our work showed


24
   U.S. Government Accountability Office Procurement Guidelines, GAO Order 0625.1 (May 7, 2009); and Control
of Capitalized and Other Accountable Personal Property, GAO Order 0621.3 (Aug. 3, 2012).
25
   GAO Policy Manual, Section 315, Part C; GAO Order 0130.1.5; and FAIS Investigation Manual, Section 1,
Chapter 6 and Chapter 1, Forensic Audits and Special Investigations (FSI): General Protocols and Procedures
For Performing Work Related to Forensic Audits and Investigations (no date).




Page 12                                                                OIG-14-1 FAIS Undercover Funds
that these controls did not go far enough in tracking or controlling the use of undercover
charge cards.


For example, our analysis showed that 6 of the 14 management approvals granted in fiscal
year 2012 had occurred after the card was used. FAIS policy requires an approved
investigative plan, when applicable, and written management approval to make a purchase
prior to use of an undercover charge card. However, we found that FAIS spent $1,725.86
(almost 19 percent) of the total $9,206.42 without prior management approval. These
purchases included expenditures made to set up websites, rent mailboxes, reactivate cell
phones, and make undercover purchases of items as potential evidence. In addition, we
found that an investigator gave an undercover charge card to an unauthorized individual
who used the card to make two purchases for an investigation. The investigator
acknowledged that the card should have never left his control and that he could have made
the purchases himself.


Our analysis also showed that four purchases totaling $784.54 were charged to accounts of
undercover charge cards that were not checked out during the purchase period. These
purchases included mailbox rentals, purchases of cell phone minutes, and an undercover
purchase of items as potential evidence. According to the Director of Investigations, these
cards had been used for many years and investigators knew the basic card information
(name, account number, and expiration date). In fiscal year 2013, FAIS cancelled its
undercover charge cards and replaced them with new ones to address this familiarity risk.


     One Monthly Statement Was Not Paid Promptly


FAIS policies and procedures 26 require the undercover charge card coordinator to reconcile
monthly charge card bank statements, within two days of receipt, to supporting
documentation and to submit this information to an approving official for review and approval
for payment. In addition, the Prompt Payment Act, 27 which applies to the contract FAIS used
to obtain its undercover cards, requires timely payment of bills upon receipt of a valid
invoice. Further, the Prompt Payment Act assesses late interest penalties against agencies
that pay vendors after a payment due date. However, our analysis showed that $344.40 in
charges shown on FAIS’s June 2012 statement were not paid until August 2012. The
coordinator said a heavy workload delayed the monthly reconciliation and approval of this
statement for payment. While FAIS had access to reports identifying undercover charge
card transactions, it lacked effective monitoring controls to ensure that charge card
statements were paid timely. Although GAO’s late payment was not in compliance with the
Prompt Payment Act, we confirmed that no interest penalty was due to the vendor.




26
   GAO, Managing Director of Forensic Audits and Special Investigations, memorandum to the Chief
Administrative Officer (Apr. 21, 2009); and FAIS Investigation Manual, Section 1, Chapter 7.
27
   31 U.S.C. § 3901, et seq.




Page 13                                                               OIG-14-1 FAIS Undercover Funds
       Undercover Charge Cards Were Used to Pay for Information Technology
       Services and Equipment


GAO policy 28 requires all agency procurement of information technology hardware, software,
telecommunications, and services to be coordinated through Information Systems and
Technology Services (ISTS). ISTS’s telecommunications manager clarified that GAO staff
are required to coordinate all purchases of information technology equipment with ISTS to
ensure that (1) the need for the equipment cannot be met through existing inventory, (2)
GAO offices take advantage of central procurement and inventory processes, and (3)
equipment purchases are identified in GAO inventory for tracking and maintenance
purposes.


Our analysis of undercover charge cards showed that FAIS did not follow GAO policy when
it used its cards to pay monthly bills for two telephone lines and to purchase a fax machine
without coordinating with ISTS. According to ISTS’s telecommunications manager, ISTS is
responsible for contracting for and paying for GAO telephone lines and information
technology equipment, including fax machines. FAIS’s Director of Investigations was
unaware of GAO’s requirement to coordinate with ISTS or why FAIS was using an
undercover charge card to pay for its telephone lines. In response to our work, FAIS’s
Director of Investigations stated that he has cancelled FAIS’s telephone lines and will
coordinate with ISTS to obtain telephone services on an as-needed basis.


       Gaps Existed in FAIS Policies and Procedures for Undercover Charge
       Cards


Policies and procedures are important tools for establishing and communicating controls to
staff. However, FAIS’s policies and procedures concerning undercover charge cards in
effect for fiscal year 2012 did not reflect changes regarding the team’s use of charge cards. 29
For example, the team no longer had purchase cards and instead used GAO’s acquisition
management office to fulfill its general procurement needs. In 2009, FAIS replaced its
purchase cards with undercover charge cards to better support investigative activities and
operations. These cards provide FAIS investigators with greater purchase flexibility for
undercover purposes by removing certain restrictions, such as single purchase limits,
verification of price reasonableness, and prohibitions against use of the card to pay for travel
expenses. However, we found that FAIS policies and procedures did not describe the
process or controls to safeguard the physical cards and monitor their use to ensure
compliance with authorization requirements.


The FAIS revised draft policies and procedures for ensuring accountability over undercover
funds, including the use of undercover charge cards, are in the final phase of review before

28
     GAO Order 0625.1.
29
 GAO, Managing Director of Forensic Audits and Special Investigations, memorandum to the Chief
Administrative Officer (Apr. 21, 2009); and FAIS Investigation Manual, Section 1, Chapter 7.




Page 14                                                              OIG-14-1 FAIS Undercover Funds
they are made available to staff. FAIS’s Director of Investigations stated that staff will be
trained following issuance of the new policies and procedures to FAIS staff. He also
indicated that FAIS is in the process of finalizing an agreement with its card provider to
replace its existing undercover charge cards with cards that will be issued to specific
investigators and investigations on an as-needed basis. Under this agreement, when an
FAIS investigation ends or the need for a charge card no longer exists, the card will be
cancelled. In addition, as discussed earlier, FAIS has revised its approval form to include an
electronic link to an approved investigative plan.


Key Factors Contributed to FAIS’s Weak Control Environment


Our work identified two key factors that we believe contributed to the weaknesses in FAIS’s
control environment discussed earlier. These factors include:


•   The lack of an effective framework for ensuring that FAIS investigative policies and
    procedures, including those regarding accountability for undercover funds, are current,
    complete, and familiar to FAIS staff; and
•   Ineffective oversight and monitoring to identify and respond to weaknesses in the overall
    control environment and activities pertaining to accountability for undercover funds.


    GAO Lacked an Effective Framework for Ensuring that FAIS Investigative
    Policies and Procedures Were Current and Complete


CIGIE’s Quality Standards for Investigations and GAO’s Standards for Internal Control in the
Federal Government 30 emphasize the importance of developing detailed policies and
procedures to fit the agency’s operations, and training staff to ensure that these
requirements are built into and become an integral part of operations. The standards also
require that policies and procedures should be periodically reviewed for continued relevance
and effectiveness and updated as needed. To ensure GAO policy remains current and
relevant, GAO Order 0010.1, Government Accountability Office (GAO) Orders, Operational
Directives, and Manuals 31 requires that these important documents are reviewed and
updated as appropriate every three years.


GAO’s policy manual 32 recognizes FAIS’s role in establishing and maintaining its policies
and procedures by referring staff to FAIS for operational authorities and procedures
governing investigations. However, an internal GAO inspection concluded that GAO’s
investigative policies and procedures were outdated and incomplete while acknowledging

30
   CIGIE, Quality Standards for Investigations; and GAO Standards for Internal Control in the Federal
Government.
31
   GAO, Government Accountability Office (GAO) Orders, Operational Directives, and Manuals, Order 0010.1
(July 1, 2013).
32
   Section 315, Part C.




Page 15                                                               OIG-14-1 FAIS Undercover Funds
that efforts were under way to update these key documents. 33 As previously discussed, we
also found gaps in FAIS policies and procedures regarding accountability for undercover
funds.


Written policies and procedures for ensuring accountability over undercover funds aid
management in establishing and communicating the “who, what, when, where, and why” of
internal control execution to personnel. Given FAIS’s staff turnover, including four managing
directors in three years, written policies and procedures and trained staff provide a means to
retain organizational knowledge and mitigate the risk of having that knowledge limited to a
few personnel. Documentation also provides a means to communicate policy and
procedural information as needed to external parties such as external auditors.


Our work identified a factor that may have contributed to the lack of progress in updating
FAIS’s investigation manual and procedures. Specifically, the Infrastructure Operations
office, which GAO Order 0010.1 designates as responsible for managing the agency’s
orders, directives, and manuals, relies on the responsible mission team or unit to notify the
Infrastructure Operations office when these documents need to be updated. GAO’s Order
0010.1 identifies mission teams, such as the Financial Management and Assurance team,
as responsible for policies and procedures related to GAO engagements within their area of
activity. However, the order does not identify FAIS among the organizational teams or units
that have a manual or significant procedures that require periodic review. According to an
Infrastructure Operations office manager, GAO is updating the order and its process for
maintaining its policies and procedures.


The lack of current and complete policies and procedures hinders FAIS management’s
ability to effectively communicate and train staff on their individual roles and responsibilities
for ensuring accountability of undercover funds. Although knowledgeable staff is an
important component in ensuring compliance with investigative standards and GAO and
FAIS specific requirements, our work identified uncertainty and confusion among FAIS staff
and managers regarding policies and procedures. Moreover, key FAIS investigators and
staff we interviewed stated that they had received little to no training from FM or FAIS
regarding their specific roles and responsibilities for ensuring accountability of undercover
funds.


As previously discussed, FAIS’s policies and procedures for ensuring accountability over
undercover funds are currently going through the agency’s review and approval process.
FAIS’s Managing Director and Director of Investigations stated that, prior to issuing updated
policies and procedures, the drafts must be coordinated and reviewed by several different
units within GAO, such as the labor-management relations office, which reviews the drafts to
determine whether an obligation to bargain with GAO’s employee union exists. 34 As an
interim step toward strengthening its procedures and ensuring appropriate accountability
over undercover funds, FAIS’s Managing Director stated that FAIS has provided policy and

33
     GAO, Results of 2010 FAIS Engagement Review (Jan. 20, 2012).
34
 GAO Employees Organization, International Federation of Professional and Technical Engineers (IFPTE, Local
1921).




Page 16                                                              OIG-14-1 FAIS Undercover Funds
procedural guidance to its managers (non-bargaining unit employees) who are now using it
to direct FAIS staff. Once FAIS investigative policies and procedures are finalized, they will
be provided to FAIS staff. In addition, FAIS’s Director of Investigations stated that FAIS will
ensure that all staff are fully trained on the new policies and procedures.


   Ineffective Oversight and Monitoring Increased Risks to Accountability of
   Undercover Funds


Ineffective oversight and monitoring also contributed to weaknesses in accountability of
undercover funds. GAO voluntarily performs an internal assessment of the effectiveness of
internal controls in its financial management operations and related activities. The Program
Analysis and Operations (PAO) office conducts this assessment. Prior to May 2014, FAIS
undercover funds were not included in these assessments. In response to our work and
under the new procedures developed by FM, to ensure accountability over investigative
funds, in May 2014, PAO initiated its first assessment of internal controls over FAIS
transactions, including cash-based obligations and expenditures and related procedures.
Prior to this assessment of controls, PAO’s monitoring of FAIS undercover funds consisted
of periodic reviews of undercover charge card transactions, and were primarily limited to
ensuring that payments had supporting documentation. Reviews of undercover charge card
transactions were discontinued in 2012 at the direction of the then PAO Director.


Financial Management and Business Operations staff stated that the sensitivity of FAIS
operations has hindered their ability to oversee and monitor FAIS’s financial management of
undercover funds. PAO’s director stated that improved cooperation and support within FAIS
would facilitate more meaningful evaluations of FAIS controls. In response to our work,
PAO’s director indicated that FAIS undercover funds would be included in a future internal
assessment of internal controls.


Recent Management Attention


In response to our audit, GAO and FAIS have taken or initiated a number of actions to
mitigate the control risks identified in our audit. Specifically, FAIS has a comprehensive
effort under way to revise and update existing policies and procedures, as well as institute
additional internal and external controls for the proper administration and operations of its
investigative programs, including those governing investigative funds. For example, FAIS
has created specific policies and processes for obtaining, accounting for, and returning
credit cards, bank accounts, and cash, as well as mechanisms for oversight and monitoring
activities to ensure compliance with GAO and FAIS policies and applicable federal
appropriations laws and regulations. In addition, FAIS has clarified roles and responsibilities
for requesting, authorizing, and approving investigative funds to help ensure accountability
and compliance with the Prompt Pay Act and other federal appropriations laws. For
example, FAIS has identified the Director of Investigations as the authorizing official and the
Assistant Director for Quality Assurance and Operations as the approving official regarding
the use of undercover funds.




Page 17                                                       OIG-14-1 FAIS Undercover Funds
Conclusion


Establishing appropriate internal controls concerning FAIS’s use of undercover funds is
essential to help ensure they are used efficiently and effectively and accountability is
maintained in compliance with applicable laws, regulations, and policies and procedures.
FAIS recognizes the importance of controls regarding its investigative operations and
activities and has a comprehensive effort under way to update its policies and procedures
for ensuring accountability for undercover funds.


Recommendations for Executive Action


To help ensure timely completion of FAIS’s efforts to strengthen its control framework and
ensure accountability of undercover funds consistent with GAO policy, professional
standards, and applicable statutes and regulations, we recommend that the Comptroller
General direct FAIS’s Managing Director to take the following two actions:


   1. expeditiously complete efforts to update and implement FAIS policies and
      procedures to ensure accountability of undercover funds and compliance with federal
      appropriations law. These policies and procedures should clearly document FAIS
      controls related to undercover funds, including methods available to obtain funds,
      approvals required, reporting requirements regarding the use of and status of funds,
      and oversight and monitoring activities for ensuring compliance, and


   2. provide FAIS investigators and others, as appropriate, training on the updated FAIS
      policies and procedures regarding accountability of undercover funds, including
      individual roles and responsibilities related to oversight and monitoring and control
      activities, for ensuring compliance with GAO and FAIS policies and appropriations
      law.


In addition, we recommend that the Chief Administrative Officer direct the Director of
Infrastructure Operations to update GAO Order 0010.1, Government Accountability Office
(GAO) Orders, Operational Directives, and Manuals (July 1, 2013) to identify FAIS as the
office of primary responsibility for forensic audit and investigative policies and procedures
related to GAO’s engagements to help ensure these documents are updated, as needed.


Agency Comments


The inspector general provided GAO with a draft of this report for review and comment.
GAO provided written comments, which are reprinted in attachment I. GAO agreed with our
recommendations and described actions taken to mitigate the control risks identified in our
work and planned to address our recommendations. The agency also provided technical
comments that we incorporated, as appropriate.



Page 18                                                       OIG-14-1 FAIS Undercover Funds
Actions taken in response to our recommendations are expected to be reported to our office
within 60 days.


                                          -----


We are sending copies of this report to the other members of GAO’s Executive Committee
(the Chief Operating Officer, Chief Administrative Officer/Chief Financial Officer, and
General Counsel), GAO’s Audit Advisory Committee, and other key managers. The report is
also available on the GAO website at www.gao.gov/about/workforce/ig.html.


If you or your staff have any questions about this report, please contact me at
(202) 512-5748 or trzeciaka@gao.gov. Key contributors to this report were Evelyn Logue,
Cathy Helm, Cynthia Hogue, and Matthew Hunter.


Attachment




Page 19                                                   OIG-14-1 FAIS Undercover Funds
Attachment I: Comments from the U.S. Government Accountability Office




Page 20                                         OIG-14-1 FAIS Undercover Funds
Page 21   OIG-14-1 FAIS Undercover Funds
Reporting Fraud,      To report fraud and other serious problems, abuses, and
                      deficiencies relating to GAO programs and operations, do one of
Waste, and Abuse in   the following. (You may do so anonymously.)
GAO’s Internal
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist,
Operations                available 24 hours a day, 7 days a week.

                      •   Online at: https://OIG.alertline.com.

                      To obtain copies of OIG reports and testimony, go to GAO’s website:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony
